           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       FEDERAL EMPLOYEES’
 COMPENSATION ACT – SOCIAL SECURITY
    ADMINISTRATION EMPLOYEES


  September 2006     A-15-06-26123




   EVALUATION
     REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:   September 25, 2006                                                           Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Federal Employees' Compensation Act - Social Security Administration Employees
        (A-15-06-26123)


        OBJECTIVE
        Our objective was to determine the extent to which improper payments may result when
        one or more of the following conditions exist for Social Security Administration (SSA)
        Federal Employees’ Compensation Act (FECA) recipients.

              •   An invalid Social Security number (SSN).
              •   A death reported on the Agency’s Death Master File (DMF).1
              •   Compensation for lost wages for periods when “earned wages”2 were reported on
                  the Agency’s Master Earnings File (MEF).3
              •   Title II benefits4 with no corresponding offset for reimbursed lost wages.

        This review was conducted for research and statistical purposes. As such, our office
        will not take any action that might affect the rights, benefits or privileges of specific
        individuals identified during the course of the review.




        1
            The DMF contains death information reported by various sources.
        2
         We define earned wages to include regular wages reported on IRS Form W-2, net self-employment
        earnings (net profit or loss from IRS Schedule C line 31 times the applicable Federal Insurance
        Contributions Act percent), and tip income.
        3
          The MEF, formally known as the Earnings Recording and Self-Employment Income System, Social
        Security Administration/Office of Systems, (SSA/OS), 60-0059, contains identification, wage, and
        earnings information for Social Security numberholders. 71 Federal Register (FR) 1796, 1819-1820
        (Jan. 11, 2006).
        4
            Social Security Act § 201, et seq., 42 U.S.C. § 402, et seq.
Page 2 - The Commissioner

BACKGROUND
FECA (5 U.S.C. § 8101, et seq.) provides income and medical cost protection to
covered Federal civilian employees injured on the job, employees who have incurred a
work-related injury or occupational disease and beneficiaries of employees whose death
is attributable to a job-related injury or occupational disease. It provides payment as
compensation for lost wages, monetary awards for medical care, vocational
rehabilitation, and survivor’s compensation. FECA is administered by the Office of
Workers’ Compensation Programs (OWCP), within the U.S. Department of Labor’s
(DoL) Employment Standards Administration.

SSA is responsible for continuing an employee’s regular wages, without charging
annual or sick leave for up to 45 days while the employee is recovering from a FECA-
covered injury or disease. When the 45-day period lapses, DoL provides compensation
for lost wages and medical benefits. SSA reimburses DoL through annual operating
appropriations.

In Federal Fiscal Years (FFY) 2004 and 2005,5 DoL reported it paid approximately
$2.4 and $2.5 billion, respectively, in compensation for lost wages and medical benefits
for about 163,000 recipients. Approximately, 60,000 of the 163,000 recipients were on
the periodic roll.6 In FFYs 2004 and 2005, SSA reimbursed DoL approximately
$23.5 and $22.8 million for about 2,700 recipients. Approximately, 600 of the
2,700 recipients were on the periodic roll.

This review was performed as part of a nationwide effort to determine whether Federal
employees are receiving compensation for lost wages for periods when earned wages
were reported on SSA’s MEF.

SCOPE AND METHODOLOGY
The DoL, Office of Inspector General (OIG) provided two data files containing SSA
FECA recipient data. The files included case management and Calendar Year (CY)
2004 compensation for lost wages. These files were merged to obtain a complete
record for each SSA FECA recipient for CY 2004.




5
    Labor Department Federal Budget Appendix for Fiscal Year 2006.
6
  The periodic roll is compensation for wage loss reserved for cases that involve clearly defined and well
established long-term disability, early in the life of the case. Periodic roll payments may be made in both
traumatic injury and occupational disease cases. The case status codes are PN, PR, PW, and PS
(see footnote 7, Appendix B).
Page 3 - The Commissioner

We performed a computerized comparison of data provided by DoL OIG against SSA’s
Numident Master File (Numident),7 DMF, MEF, and Master Beneficiary Record (MBR).8

The Privacy Act of 1974, as amended, places limitations on the use of records.
According to the Act, “…no record which is contained in a system of records may be
disclosed to a recipient agency or non-Federal agency for use in a computer matching
program except pursuant to a written agreement between the source agency and the
recipient agency or non-Federal agency....”9 However, the term “matching program”
does not include “…matches performed to support any research or statistical project,
the specific data of which may not be used to make decisions concerning the rights,
benefits, or privileges of specific individuals.”10 This applies to our computerized
comparison of data, which was performed for research and statistical purposes only.
See Appendix B - Scope and Methodology.

RESULTS OF REVIEW
Based on our comparisons, we determined:

      1. Twenty-one recipients earned wages and received compensation for lost wages
         while classified by OWCP as long-term disabled individuals who have no wage
         earning capacity or reemployment potential for the indefinite future, or their
         reemployment or earnings capacity had not yet been determined. The risk of
         improper compensation for lost wages increases when an individual considered
         to have a long-term disability without wage earning capacity earns wages.
         Although 21 recipients were identified, we did not review their individual case files
         to determine whether improper payments occurred.11

           The total amount of compensation for lost wages paid to these individuals in
           CY 2004 was $525,730. The wages earned by the recipients ranged from about
           $67 to $30,561. See Chart 1.


7
  The Numident, which is an electronic component of the SSA record system, Master Files of Social
Security Numberholders and SSN Applications, SSA/OS, 60/0058, is a record of identifying information
(such as name, date of birth, date of death, mother's maiden name, etc.) provided on SSN applications,
and other pertinent enumeration information. 71 FR 1796, 1815-1816 (Jan. 11, 2006).
8
 The MBR contains information about each claimant who has applied for retirement, survivors, or
disability benefits or who is to be enrolled in the Hospital Insurance or Supplementary Medical Insurance
program. For example, the MBR contains claimant's name, date of birth, gender, etc. MBR, SSA/Office
of Retirement and Survivors Insurance Systems, 60-0090. 71 FR 1796, 1826-1827 (Jan. 11, 2006).
9
    5 U.S.C. § 552a(o)(1).
10
     5 U.S.C. § 552a(a)(8)(B)(ii).
11
  Use and disclosure of wage and earnings information is regulated under the Internal Revenue Code,
26 U.S.C. § 6103. DoL routinely obtains consent from FECA recipients for the disclosure of wage and
earnings information maintained by SSA for FECA income verification purposes.
Page 4 - The Commissioner


                   CHART 1 - Wages Earned by Periodic Roll Recipients
                                                                                       $15,000
          Total            $67 -         $1,001 -       $5,001 -       $10,000 -         and
        Recipients        $1,000          $5,000        $10,000         $15,000        Greater
           21               812              3             4               2              4

     2. Three recipients with a death indicator annotated13 on their Numident record,
        were included on the DMF, and received excess payments of compensation for
        lost wages.14 The total amount of excess payments made to these individuals
        was $142,550. The payments ranged from $1,116 to $135,621. One of the
        three recipients received $135,621 in excess payments. The recipient’s
        annotated date of death was November 27, 2000; however, the recipient
        continued to receive compensation for lost wages until June, 2004. See Chart 2.

                    CHART 2 - Death Master File Comparison Results

                                                                               Total
                                                                             Received
                                                                              After the
                     Annotated                                               Annotated
                       Date of             CY 2004 FECA Status                Date of
           Recipient    Death              Compensation   Code                 Death
              1      11/27/2000                $28,426.00  PR                $135,621.43
              2      11/16/2004                $18,407.00  PR                  $5,812.57
              3      05/29/2005                $13,203.44  C5                  $1,116.00

           Total                                                              $142,550.00

        Subsequent to the date of our fieldwork, the names, SSNs, dates of death and
        amounts of excess payments were provided to the Agency to take any action it
        deemed necessary. An Agency representative responded that:



12
  Of the eight individuals who earned $67 - $1,000, one was classified as no wage earning capacity or
re-employment potential for the indefinite future (status code PN). The individual earned $741 in CY
2004.
13
 The recipients’ Numident records contained a death indicator and the recipient was included on the
DMF. However, we did not verify whether the person was deceased.
14
  We define “excess payments” as compensation for lost wages paid 2 or more months after a recipient’s
annotated date of death. The term "excess payments" was defined by the DoL OIG in its 1998 audit
report, FECA Excess Payment Recovery Procedures Need Improvement, No. 03-98-003-04-431
(available at www.oig.dol.gov/public/reports/oa/1998/03-048-003-04-431s.htm), as compensation benefit
payments issued subsequent to a FECA recipient's death.
Page 5 - The Commissioner

                  In 2004, SSA headquarters began matching employees
                  receiving workers’ compensation benefits against SSA death
                  records to ensure that those receiving benefits were not
                  deceased. Since 2004, we have done this on a quarterly
                  basis after receipt of the charge back listing from the
                  Department of Labor.

          As a result, SSA management stated it previously identified these individuals and
          alerted DoL. Further, “…DoL had recovered the total overpayments in two of the
          three and the third was in the process of being recovered by DoL.”

      3. Seven recipients received Disability Insurance (DI) benefits and compensation
         for lost wages in CY 2004 with no indicator on their MBR that SSA took action to
         reduce DI benefits. The Social Security Act provides, when a DI beneficiary
         under age 65 also receives public disability benefits, which includes Workers’
         Compensation, the DI benefit may be reduced.15 The total amount of
         compensation for lost wages was about $128,000. Further, we determined
         approximately $35,000 in DI benefits were potentially overpaid to these
         recipients. The overpayments ranged from $398 to $13,702. See Chart 3.

                    CHART 3 – Potential Overpayments of Title II Benefits




                                                               Title II Benefits
                    Compensation                                        if
                    for Lost Wages         Title II Benefits   Compensation
                      Received in            Received in       for Lost Wages       Total
     Recipient          CY 2004                CY 2004            Recorded       Overpayment
         4                $16,555.26               $3,000.00           $3,000.00        $0.00
         5                $30,892.72             $14,797.20            $7,507.32    $7,289.88
         6                $18,625.00             $13,701.60                $0.00   $13,701.60
         7                 $7,509.96             $11,460.00          $11,460.00         $0.00
         8                $14,779.00               $3,108.00               $0.00    $3,108.00
         9                $27,586.94               $9,816.00           $9,417.68      $398.32
        10                $12,344.48             $10,848.00                $0.00   $10,848.00
       Total             $128,293.36             $66,730.80          $31,385.00    $35,345.80

          Agency staff stated that SSA has a computer matching agreement with DoL.
          Under the matching agreement, SSA matches FECA data to the Agency’s MBR
          and Supplemental Security Record. This match should identify FECA recipients
          who received DI benefits and may require an offset for reimbursed lost wages.


15
     The Social Security Act § 224, 42 U.S.C. § 424a.
Page 6 - The Commissioner

   4. Two recipients had invalid SSNs, but no compensation for lost wages were paid
      to these individuals in CY 2004. Although no compensation for lost wages were
      paid to these individuals, invalid SSNs pose a risk individuals could receive
      benefit payments under a false identity.

      Agency management stated that it notified DoL of the incorrect SSNs and
      “… DOL had corrected their records to reflect the correct SSNs.”

CONCLUSION AND RECOMMENDATIONS
Based on the results of our analyses, the potential exists for improper payments to
occur and continue to be paid if SSA does not implement corrective action to improve its
oversight and monitoring of its FECA program.

Therefore, we recommend SSA:

   1. Coordinate with OIG to develop a computer matching agreement with DoL to
      acquire FECA recipient data to match on a periodic basis with data contained in
      SSA’s systems. A matching agreement will be necessary to identify and resolve
      improper payments such as the ones identified in this report.

   2. Perform periodic reviews using available internal data to detect FECA recipients
      who, for various reasons, may not be eligible to receive FECA benefits.

AGENCY COMMENTS
SSA agreed with our recommendations. The text of SSA’s comments is included in
Appendix D.




                                               S
                                               Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Data Reliability, Internal Controls, and Review Standards
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
CY         Calendar Year
DI         Disability Insurance
DMF        Death Master File
DoL        Department of Labor
FECA       Federal Employees’ Compensation Act
FFY        Federal Fiscal Year
FR         Federal Register
MBR        Master Beneficiary Record
MEF        Master Earnings File
Numident   Numident Master File
OASI       Old-Age and Survivors Insurance
OIG        Office of Inspector General
OS         Office of Systems
OWCP       Office of Workers’ Compensation Programs
SSA        Social Security Administration
SSN        Social Security Number
U.S.C.     United States Code
                                                                                   Appendix B

Scope and Methodology
The Department of Labor (DoL), Office of Inspector General provided two data files
containing Social Security Administration (SSA) Federal Employees’ Compensation Act
(FECA) recipient data. The data files included case management and Calendar Year
(CY) 2004 compensation for lost wage information. The SSA FECA recipients were
compared to SSA’s Numident Master File (Numident),1 Death Master File (DMF),2
Master Earnings File (MEF),3 and Master Beneficiary Records (MBR).4 A description of
the data files, and methodologies used to perform our comparisons follow:

Data Files

      Case Management File – This file contains general case information for all active
      and inactive SSA FECA recipients as of June 30, 2005. The types of information
      included are the recipient’s name, address, Social Security number (SSN), type of
      injury, date of injury, etc. There are 10,663 SSA recipient cases included in the file.
      These cases represent 8,417 individuals.5 Of the 8,417, about 2,700 were reported
      by SSA as active recipients. The records of the 8,417 individuals were compared to
      SSA’s Numident and DMF.




1
 The Numident, which is an electronic component of the SSA record system, Master Files of Social
Security Numberholders and SSN Applications, Social Security Administration/Office of Systems
(SSA/OS), 60/0058, is a record of identifying information (such as name, date of birth, date of death,
mother's maiden name, etc.) provided on SSN applications, and other pertinent enumeration information.
71 Federal Register (FR) 1796, 1815-1816 (Jan. 11, 2006).
2
    The DMF contains death information reported by various sources.
3
 The MEF, formally known as the Earnings Recording and Self-Employment Income System, SSA/OS,
60-0059, contains identification, wage, and earnings information for Social Security numberholders.
71 FR 1796, 1819-1820 (Jan. 11, 2006).
4
 The MBR contains information about each claimant who has applied for retirement, survivors, or
disability benefits or who is to be enrolled in the Hospital Insurance or Supplementary Medical Insurance
program. For example, the MBR contains claimant's name, date of birth, gender, etc. MBR, SSA/Office
of Retirement and Survivors Insurance Systems, 60-0090. 71 FR 1796, 1826-1827 (Jan. 11, 2006).
5
    An individual could have more than one case.


                                                   B-1
      CY 2004 Compensation for Lost Wages File - This file contains CY 2004
      compensation for lost wage data for 597 SSA recipients’ on the periodic roll.6 These
      recipients are identified by case status codes of PN, PR, PS, and PW.7

We merged the Case Management and CY 2004 Compensation for Lost Wages files.
We combined these files to obtain a complete FECA record for each SSA recipient for
CY 2004. As a result, we obtained CY 2004 case management and compensation for
lost wages information for 597 recipients on the periodic roll. Using the merged file, we
determined 401 of 597 SSA FECA recipients were classified by the Office of Workers’
Compensation Programs as PN or PR8 for the entire CY 2004.

Numident Comparison

We compared the SSNs of 8,417 SSA FECA recipients included in the Case
Management File to the Numident to determine if the recipients’ SSNs were valid.

DMF Comparison

We compared 8,417 SSA FECA recipients included in the Case Management File to the
Agency’s Numident and DMF. Of the 8,417 recipients, we identified 242 who had a
death indicator annotated on their Numident and included on the DMF. Of the
242 recipients, 22 received compensation for lost wages in CY 2004. Of the 22, 9 were
closed cases. For the remaining 13, we reviewed quarterly chargeback reports 9
submitted by DoL detailing compensation for lost wages paid to SSA recipients. We
reviewed these reports to determine if compensation for lost wages was paid
subsequent to the recipient’s annotated date of death or if payments were paid to a
survivor of a deceased recipient. We did not verify whether the recipient was deceased.




6
  The periodic roll is compensation for wage loss reserved for cases that involve clearly defined and well
established long-term disability, early in the life of the case. Periodic roll payments may be made in both
traumatic injury and occupational disease cases. The case status codes are PN, PR, PW, and PS.
7
  DoL defines status codes as: PN - Entitled to payment on the periodic roll; formerly determined to have
no wage earning capacity or re-employment potential for indefinite future. PR - Entitled to payment on
the periodic roll; re-employment or earning capacity not yet determined. PS – Entitled to payment for
scheduled award, whether periodic or lump sum. PW – Entitled to reduced compensation reflecting
partial wage earning capacity or actual earnings.
8
    Of the 401, there were 131 PNs (33 percent) and 270 PRs (66 percent).
9
 The chargeback reports prior to the 4th quarter of 2000 were not available. Therefore, we could not
verify compensation for lost wages prior to this period.


                                                    B-2
MEF Comparison

We compared 401 FECA recipients included in the merged file and classified by OWCP
as PN and PR for the entire CY 2004 to the Agency’s MEF to determine if the recipients
received both earned wages and compensation for lost wages.

MBR Comparison

The Social Security Act (Act) provides, when a Title II Disability Insurance (DI)
beneficiary under age 65 also receives public disability benefits, which includes
Workers’ Compensation, the DI benefit may be reduced.10 The Act requires disability
benefits be reduced when the worker is also eligible for periodic or lump-sum Workers’
Compensation payments, so the combined amount of Workers’ Compensation and
Social Security disability benefits does not exceed 80 percent of the worker’s average
current earnings.11 The combined payments after the reduction, however, will never be
less than the amount of Social Security disability benefits before the reduction.12

We compared 597 SSA FECA recipients included in the merged file to the Agency’s
MBR. Of the 597, we determined 299 had Old-Age and Survivors Insurance (OASI) or
DI benefit information on their MBR. We reviewed their MBRs to determine: 1) if the
recipient was currently receiving OASI or DI benefits, 2) the recipient’s age, 3) the
recipient’s full retirement age and date of entitlement, and 4) if the receipt of workers’
compensation was recorded. In cases where compensation for lost wages was not
recorded on the recipient’s MBR, we ascertained if the compensation was properly
excluded. If not, we recalculated the recipient’s Title II benefits taking into account their
compensation for lost wages. As a result, we determined possible benefit
overpayments due to the Agency.13




10
     The Social Security Act § 224, 42 U.S.C. § 424a.
11
     42 U.S.C. § 424a.
12
     Ibid.
13
  To perform this calculation, we determined the recipient’s High 5 and High 1 salary and applied the
highest of the two in the calculation of Title II benefits. However, we did not calculate the Average
Monthly Wage which should be compared to the High 5 or High 1.




                                                    B-3
                                                                                   Appendix C

Data Reliability, Internal Controls and Review
Standards
We determined the computer-processed data to be sufficiently reliable for its intended
use. We tested the Social Security number (SSN) data element included in the data
files provided by the U.S. Department of Labor (DoL), Office of Inspector General (OIG).
The use of this data element was limited to determining the number of Calendar Year
(CY) 2004 Social Security Administration (SSA) Federal Employees’ Compensation Act
(FECA) recipients. The test performed determined the accuracy, and validity of the
SSNs.

The data elements obtained from the Numident Master File (Numident),1 Death Master
File (DMF),2 Master Earnings File (MEF),3 and Master Beneficiary Record (MBR)4 and
used for our comparisons were sufficiently reliable. Any data limitations were minor and
should not lead to an incorrect or unintentional message.

We did not review recipient case files to determine if any additional FECA data provided
by the DoL’s OIG was accurate, complete and valid.

We did not assess SSA’s internal controls used to administer its FECA program. We
performed our fieldwork from February 2006 through June 2006. Our review was
conducted in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.




1
 The Numident, which is an electronic component of the SSA record system, Master Files of Social
Security Numberholders and SSN Applications, Social Security Administration/Office of Systems
(SSA/OS), 60/0058, is a record of identifying information (such as name, date of birth, date of death,
mother's maiden name, etc.) provided on SSN applications, and other pertinent enumeration information.
71 FR 1796, 1815-1816 (Jan. 11, 2006).
2
    The DMF contains death information reported by various sources.
3
 The MEF, formally known as the Earnings Recording and Self-Employment Income System, SSA/OS,
60-0059, contains identification, wage, and earnings information for Social Security numberholders.
71 Federal Register (FR) 1796, 1819-1820 (Jan. 11, 2006).
4
 The MBR contains information about each claimant who has applied for retirement, survivors, or
disability benefits or who is to be enrolled in the Hospital Insurance or Supplementary Medical Insurance
program. For example, the MBR contains claimant's name, date of birth, gender, etc. MBR, SSA/Office
of Retirement and Survivors Insurance Systems, 60-0090. 71 FR 1796, 1826-1827 (Jan. 11, 2006).
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY
MEMORANDUM


Date:      September 14, 2006                                                   Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Federal Employees' Compensation Act -
           Social Security Administration Employees" (A-15-06-26123) -- INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff on extension 54636.

           Attachment:
           SSA Response




                                                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "FEDERAL EMPLOYEES' COMPENSATION ACT - SOCIAL SECURITY
ADMINISTRATION EMPLOYEES" (A-15-06-26123)

Thank you for the opportunity to review and comment on the draft report regarding Social
Security Administration (SSA) employees and the Federal Employees Compensation Act
(FECA). Although we have concerns with the findings as stated in the draft report, we fully
concur with the recommended actions.

The report acknowledges that, for the 21 workers' compensation recipients who had earnings
reported in calendar year (CY) 2004 and at the same time received workers' compensation
benefits, OIG did not review individual case files to determine whether any improper payments
occurred. SSA reported all of these individuals to the Department of Labor (DoL) as having
potential earnings prior to the initiation of OIG's audit. Further, SSA is continuing to work with
DoL to determine whether any workers' compensation overpayments resulted from the CY 2004
earnings so that appropriate corrective action can be initiated by DoL, if warranted. Finally, it is
important to note that while some types of earnings (such as lump sum annual leave payments
and settlement payments) may be considered wages for Internal Revenue Service purposes, such
wages are not considered earnings that would affect the receipt of workers' compensation
benefits.

Similarly, regarding the two cases in which the recipients had invalid Social Security numbers
(SSNs), Agency management notified DoL of the incorrect SSNs prior to the initiation of the
OIG audit. Further, DoL corrected their records to reflect the correct SSNs.

Regarding the potential overpayments of Title II and Title XVI benefits, SSA has been
developing a computer matching agreement with DoL that would match workers' compensation
recipients' earnings with SSA's Master Beneficiary Record and Supplemental Security Income
Record so that benefits could be adjusted based on receipt of workers' compensation benefits
where appropriate. Prior to the initiation of the audit, SSA has been successful in obtaining
access to DoL's Agency Query System for that purpose.

Even though the report makes no finding as to whether any improper payments occurred, we
agree that the potential for improper payments exists. Nonetheless, it should be noted that in
2003, SSA implemented the types of corrective actions (i.e., matching earnings records, death
records, etc.) recommended in the draft report, albeit using a different methodology than is
recommended in the report.

Our specific responses to the report's recommendations are provided below.




                                                D-2
Recommendation 1

Coordinate with OIG to develop a computer matching agreement with DoL to acquire FECA
recipient data to match on a periodic basis with data contained in SSA’s systems. A matching
agreement will be necessary to identify and resolve improper payments such as the ones
identified in this report.

Response:

We agree. SSA has been working to develop such a computer matching agreement with DoL to
acquire FECA recipient data to periodically match that data with data contained in SSA's
systems. As agreed, your office will be crafting the agreement, with advisory support

Recommendation 2

Perform periodic reviews using available internal data to detect FECA recipients who, for
various reasons, may not be eligible to receive FECA benefits.

Response:

We agree. SSA has been performing such periodic reviews since 2003. We expect that the
computer matching agreement referenced in Recommendation 1 will be completed shortly and
make the periodic reviews that have been conducted since 2003 much less labor intensive.




                                              D-3
                                                                         Appendix E


OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division, (410) 966-9081

   Brian Karpe, Audit Manager, Financial Audit Division, (410) 966-1029

Acknowledgments

In addition to those named above:

   Ronald Anderson, Auditor-in-Charge

   Brennan Kraje, Statistician

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-15-06-26123.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
